WAIVER
SUPREME COURT OF THE UNITED STATES
No.

20-1607
Anthony Michael Owen

The People of the State of Michigan

(Respondent)

V.

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Q

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

0

uested, the response
m to: Supreme Court,

I am not presently a member of the Bar of this Court. Should a res
will be filed by a Bar member. (Filing I ructions: Ma
treet
Attn: Clerk's Office, 1 Fir
Signature:
Date:
(Type or print) Name
0 Mr '

0 Ms.

0 Mrs.

Firm

Law Office of Edward J. Sternisha, PLLC

Address

330 Fuller Ave NE

City & State

Grand Rapids, MI

Phone

(616) 233-2255

0 Miss

Zip 49503
Email ed.sternisha@gmail.com

( sent to petitioner's counsel or to petitioner if pro se. Please indicate
A copy of this form must be
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover lette
cc:

Kyle Butler, Ionia County Prosecuting Attorney
Jerrold Schrotenboer, Jackson Chief Appellate Attorney

ctgiVED
—J131fr 2021
OFFICE OF 111-ig CLERK
SUPREME COURT U.S.

